March 17, 2010

MEGAN J. BRENNAN
VICE PRESIDENT, EASTERN AREA OPERATIONS

SUBJECT: Audit Report – Management of Mail Transport Equipment – Eastern Area
         (Report Number NL-AR-10-004)

This report presents the results of our self-initiated audit of Management of Mail
Transport Equipment (MTE) (Project Number 10XG008NL000). The objective was to
assess the effectiveness of the U.S. Postal Service’s management and control of MTE,1
including distribution, flow, security, and inventory management. This report is the
second in a series and focuses on the Eastern Area.2 See Appendix A for additional
information about this audit.

Conclusion

The Eastern Area’s effectiveness was limited over the management and control of MTE.
Although management identified the Eastern Area as a “deficit” MTE Area that often
experienced MTE shortages,3 area and local officials did not always ensure there were
adequate controls over inventory and accountability processes required by the Postal
Operations Manual (POM). Specifically:

        MTE “on-hand” inventories were generally unknown since management did not
         always conduct the required weekly inventory counts at all facilities, major
         mailers, or other external customers to provide an estimated MTE inventory
         within the area.

        Although facilities generally maintained records of MTE distributed to mailers and
         other customers, they did not have visibility over the MTE flow once it left the
         facilities and did not establish accountability for managing, tracking, or
         reconciling MTE.


1
  MTE consists of various types of containers, specifically designed, marked, manufactured, and distributed for the
sole purpose of transporting United States mail within or between Postal Service facilities, its contractors, its mailers,
and other external customers.
2
  The Postal Service views MTE as a national asset and it is procured and allocated to areas by headquarters.
Further, areas and facilities are responsible for properly inventorying, accounting for, and safeguarding MTE.
3
  The Postal Service moves more mail east to west, generally resulting in facilities in the east having less MTE than
needed (referred to as “deficit” locations) to meet operational requirements. The Eastern Area normally has a
shortage of MTE, requiring a higher level of management of this shortage to redistribute MTE (i.e., the transport of
excess MTE from the west back to the east).
Management of Mail Transport Equipment –                                                           NL-AR-10-004
 Eastern Area


We determined these conditions occurred because:

       Facility managers did not always provide sufficient priority, resources, training,
        and oversight to manage MTE effectively.

       Area management did not assign sufficient resources to monitor MTE activities
        and comply with POM requirements.

       The Eastern Area did not have standard operating procedures (SOP) to
        complement and reinforce POM requirements and fully address all necessary
        controls over MTE.

       The Postal Service does not have a nationwide comprehensive inventory system
        for identifying and tracking all MTE to support area and local oversight
        responsibilities.4

As a result, mail may be delayed because some facilities do not have sufficient MTE to
move the mail. Further, the Postal Service may be unnecessarily purchasing MTE
because of the unavailability of the equipment. For example, the Eastern Area and
several associated facilities have purchased cardboard containers to compensate for
the shortage of rolling MTE stock. We also concluded some MTE assets in the Eastern
Area are at risk of loss, theft, and misuse; present a danger to public safety and
security; and reflect poorly on the Postal Service’s brand and public image.5 See
Appendix B for our detailed analysis of this topic.

We recommend the vice president, Eastern Area Operations:

1. Reinforce national Mail Transport Equipment (MTE) policies and procedures
   contained in the Postal Operations Manual (POM) that require facility managers to
   provide sufficient priority, resources, training, and oversight to effectively manage
   MTE, including:

       Designating and training MTE coordinators or equivalents, ensuring that
        sufficient time and resources are allocated to perform all the duties the POM
        requires and that management establishes controls for monitoring MTE
        coordinators’ (or their equivalents’) activities and results.

       Conducting weekly “on-hand” inventory counts of MTE at all major facilities and
        mailers to promote better management of MTE and provide for the estimated
        MTE inventory within the Eastern Area.

4
  We will conduct a subsequent audit to review and assess overall MTE management from a nationwide perspective
and will provide recommendations regarding a comprehensive inventory and tracking system at that time.
5
  The essence of the Postal Service brand is customer perception and the control and management weaknesses
above could pose a high risk if the public negatively perceives the Postal Service’s ability to properly manage,
account for, and protect their assets.




                                                        2
Management of Mail Transport Equipment –                                         NL-AR-10-004
 Eastern Area



2. Develop Eastern Area standard operating procedures that complement and reinforce
   the Postal Operations Manual and fully address all necessary Mail Transport
   Equipment (MTE) controls, including addressing accountability controls, such as
   validating customer MTE needs and tracking and reconciling MTE loaned to mailers
   and other external customers.

3. Ensure that the Distribution Networks Office assigns sufficient area resources to
   monitor the management of Mail Transport Equipment (MTE) and compliance with
   Postal Operations Manual MTE requirements and any developed standard operating
   procedures.

Management’s Comments

Management agreed with our findings and recommendations. Management responded
that the Eastern Area would require the identification and training of facility MTE
coordinators or equivalents. Specifically, the Postal Service will roll out training with all
facility transportation network managers in FY 2010. The training will include
procedures for complying with MTE POM requirements and for conducting weekly
“on-hand” inventory counts. Further, management stated they would develop standard
operating procedures by June 1, 2010, to complement and reinforce the POM to fully
address all necessary MTE controls. Additionally, management noted that the area’s
Distribution Networks Office would have oversight and would work with field and
marketing to develop MTE controls for mailers and external customers. See Appendix E
for management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to all the recommendations, and the corrective actions should
resolve the issues identified in the report.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                              3
Management of Mail Transport Equipment –                                    NL-AR-10-004
 Eastern Area


We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Jody Troxclair, director,
Transportation, or me at 703-248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Steven J. Forte
    Jordan M. Small
    Susan M. Brownell
    James E. Hull
    Thomas P. Ware
    James D. Adams
    Cynthia F. Mallonee
    James R. Hardie
    Sally K. Haring




                                           4
Management of Mail Transport Equipment –                                                               NL-AR-10-004
 Eastern Area


                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

MTE consists of various types of containers used to hold mail during processing and
transportation within or between Postal Service facilities, its contractors, its mailers, and
other external customers.6 The Postal Service purchased over 354 million pieces of
MTE totaling more than $916 million over the last 10 years.

The various types of MTE include:

            Pallets made of plastic, wood, or chipboard.
            Containers with wheels of varied sizes, shapes, and material (known as
             “rolling stock”).
            Trays of varying sizes for letters and flats (known as “tubs”).
            Mailbags (known as “sacks”).
            Cardboard and fiberboard boxes (known as “Postal Paks”).




                               Approximately 200 All-Purpose-Containers (APCs)
                               of unprocessed MTE at the Legree Daniels P&DC,
                                       Harrisburg, PA, October 29, 2009.

Generally, the useful life of MTE will vary considerably based on type and some types of
MTE, such as rolling stock (containers on wheels), can be in service for as long as 20
years. Individual MTE items cost the Postal Service anywhere from less than $1 to
about $1,400 and are expensed (rather than capitalized) in accordance with Postal
Service accounting policies and practices. As such, the Postal Service does not carry
MTE inventory as an asset for financial reporting purposes and does not know the size
or value of its MTE inventory. Further, the organization views MTE as being
consumable or expendable.

6
 About 400 processing facilities; 33,000 post offices; and numerous mailers, printers, consolidators, and other
external customers nationwide use MTE. While the Postal Service loans MTE to mailers and other external
customers as a courtesy, it may not give those entities MTE for their internal operating use or personal convenience.




                                                          5
Management of Mail Transport Equipment –                                                           NL-AR-10-004
 Eastern Area


MTE Management and Oversight. POM Section 587 specifies that Postal Service
Headquarters, under the direction of the vice president, Network Operations, is
responsible for establishing policy for managing all aspects of MTE, including its
operation, transportation, distribution, delivery, inventory, storage, and reporting. The
Postal Service developed national guidelines for the POM nearly 20 years ago,
delineating headquarters, area, plant, and mailer responsibilities for MTE. The POM
guidelines are still in effect even though some provisions may be outdated due to
changes in the operating environment.

The Postal Service’s eight geographical areas, through their Distribution Networks
Offices (DNOs), are responsible for ensuring compliance with Postal Service MTE
policy at the field level. The area DNOs are required to provide guidance to facilities and
each facility is responsible for daily management of its MTE, ensuring compliance with
all national MTE policies.

MTE Accounting and Inventory. The Postal Service initially established the Equipment
Inventory Reporting System (EIRS) to enable the control and management of MTE by
redistributing MTE from surplus to deficit areas. However, management determined the
EIRS and its related reporting functions were no longer necessary with implementation
of the Mail Transport Equipment Service Center (MTESC) network around 1997, and
decided to rely on data provided by the MTESC network for visibility into the MTE
program.7 However, there is limited visibility of MTE outside the MTESC network.

To address its continued lack of MTE inventory management, controls, and visibility,
Postal Service Headquarters is exploring the development of the MTE Online Ordering
(MTEOR) system. While management put the MTEOR system initiative on hold in April
2009 due to the Postal Service’s financial condition, funding for this initiative in FY 2010.
The Postal Service re-initiated development of the MTEOR system and plans to begin
initial testing in the summer of 2010.

MTESC Network. The MTESC network is a centrally managed system of
contractor-operated service centers designed to supply pallets, tubs, mailbags, and
other MTE to mail processing facilities and certain large customers nationwide.8 The
MTESC network delivers MTE to users with dedicated transportation, recovers
equipment that is no longer needed or serviceable, and then processes it for inventory
or redistribution. The Mail Transport Equipment Support System (MTESS),9 which forms
the Postal Service’s only formal visibility of MTE inventory, tracks the activities of the

7
  Although no longer a functioning computerized system, some Postal Service areas use the EIRS framework to
manually track and report inventory counts because of the limitations of the MTESC network inventory system.
However, the Eastern Area does not use the EIRS framework to manually track and report inventory counts.
8
  Since its inception, the MTESC network consisted of 23 service centers. However, management will reduce the
MTESC network to 15 service centers in FY 2010. The goal of reengineering the MTESC network is to minimize
surplus and deficit MTESC locations and reduce transportation costs.
9
  Headquarters uses MTESS information, while severely limited in scope of coverage, to determine MTE
requirements nationally and forecast what new MTE to order annually. We will review and address national MTE
controls in an upcoming audit.




                                                        6
Management of Mail Transport Equipment –                                                                NL-AR-10-004
 Eastern Area


centers. However, the system is limited in that it only tracks inventory physically at
MTESCs and does not provide visibility of MTE at facilities, with mailers and other
external customers, or in-transit.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to assess the effectiveness of the Postal Service’s management and
control of MTE, including distribution, flow, security, and inventory management. This
report focuses on management and control of MTE in the Eastern Area.

To accomplish our objective, we conducted interviews with representatives from
Headquarters Network Operations (Logistics – MTE). We also conducted interviews
with the Eastern Area DNO to obtain an understanding of the MTE program and its
history. We reviewed MTE operations at 18 Postal Service facilities in the Eastern
Area10 to assess the control environment in the Postal Service network and made
physical observations at 15 of these facilities. We also visited and observed MTE
operations at 12 mailers and 2 MTESCs in the Eastern Area. See Appendix C for a list
of facilities and mailers reviewed.

In addition, we reviewed national and area policies, procedures, and documents,
including the POM, Material Management Handbook, and various MTE reports and
information. Further, we reviewed and updated 10 years’ worth of MTE purchase data
provided by headquarters dating back to FY 2000 to help estimate the scope, size, age,
and make-up of MTE inventory at the national level.

During our audit, we noted control weaknesses that constrained our work. For example,
there is no complete, accurate, or reliable inventory of MTE at the national or area level
and we were unable to determine the scope of MTE within the Eastern Area. However,
we compensated for internal control weaknesses and data limitations by applying
alternate audit procedures including observations, examination of source documents,
discussions with responsible officials, a review of MTE purchases nationally covering
the past 10 years, and communication with the Postal Inspection Service and
headquarters’ MTE group on their respective MTE efforts.

We conducted this performance audit from October 2009 through March 2010 in
accordance with generally accepted government auditing standards and included such
tests of internal controls, as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management officials on March 1, 2010, and
included their comments where appropriate.
10
  Facilities we reviewed include processing and distribution centers (P&DC), logistics and distribution centers
(L&DC), and network distribution centers (NDC).




                                                           7
   Management of Mail Transport Equipment –                                                         NL-AR-10-004
    Eastern Area



   PRIOR AUDIT COVERAGE

   As indicated by the chart below, since December 2008, the OIG issued two audit
   reports addressing MTE management.

                                                  Final
                                                 Report         Monetary
    Report Title         Report Number            Date           Impact                   Report Results
Management of Mail        NL-AR-10-001          10/22/09           $0          The Pacific Area’s management and
Transport Equipment                                                            control of MTE was not effective.
– Pacific Area                                                                 The area did not always ensure
                                                                               compliance with inventory and
                                                                               accountability processes nor ensure
                                                                               the safeguarding of assets.
                                                                               Management generally agreed with
                                                                               our findings and recommendations.
Radio Frequency           DA-AR-09-002          12/24/08       $127 million    The Postal Service has
Identification                                                                 opportunities to adopt Radio
Technology – Asset                                                             Frequency Identification Technology
Management                                                                     (RFID) to manage MTE inventories
                                                                               and minimize long-standing pallet
                                                                               losses. The OIG reported about
                                                                               $127 million in funds put to better
                                                                                    11
                                                                               use.




   11
     Management agreed with our findings and recommendations. The Postal Service is exploring RFID technology for
   pallets, but placed plans for implementation on hold due to the Postal Service’s current financial situation.




                                                           8
Management of Mail Transport Equipment –                                                                NL-AR-10-004
 Eastern Area


                                 APPENDIX B: DETAILED ANALYSIS

More Effective MTE Inventory Management and Control Needed

The Eastern Area’s effectiveness was limited over the management and control of MTE.
Although management has identified the Eastern Area as a “deficit” area that often
experienced MTE shortages, area and local officials did not always ensure adequate
controls over inventory and accountability processes required by the POM.12

MTE Inventory On-Hand Counting and Reporting. We determined that generally MTE
“on-hand” inventories were unknown since management did not always conduct the
required weekly inventory counts at all facilities, major mailers, and other external
customers to provide an estimated MTE inventory within the area. Although all 18
facilities conducted daily observations and walk-through activities to determine MTE
needs, only eight facilities actually took a weekly on-hand inventory. Of the eight
facilities, none reported the inventory counts to the area.13 The inventory count
information was only for internal management of MTE at the facility level and not used
by the area to manage MTE and monitor deficit and excess locations.

The Eastern Area was not effectively conducting and using the “on-hand inventory
counts” to manage MTE because facility managers did not always provide sufficient
priority, resources, training, and oversight. In addition, Eastern Area management did
not assign sufficient resources to monitor MTE activities and compliance with POM
requirements. Further, Eastern Area management did not have a SOP to complement
and reinforce the POM requirements; and fully address all necessary controls over
MTE.

Accountability and Controls for MTE. Although all facilities reviewed generally kept
records of distributed MTE to mailers and other customers, they did not have visibility
over the MTE flow once it left the facilities; and did not use the records to manage,
track, or reconcile to establish accountability. Of the 14 facilities that service mailers,14
we determined management was not:

        Advising mailers of their responsibilities and liabilities (12 of 14 facilities).

        Conducting periodic reviews/audits of MTE loaned to mailers and other external
         customers (11 of 14 facilities).

        Ensuring that loaned MTE was used for its intended purpose and returned in a
         safe and timely manner (11 of 14 facilities).

12
   The Eastern Area has not published a MTE SOP to set policies and establish responsibilities and procedures for
effective management of MTE and to ensure compliance with national MTE policies.
13
   Due to data limitations and lack of records, we could not determine facility reporting and compliance over time.
14
   The Cincinnati, Philadelphia, and Pittsburgh NDCs, along with the Pittsburgh L&DC, are the facilities that do not
service mailers.




                                                          9
Management of Mail Transport Equipment –                                                NL-AR-10-004
 Eastern Area



      Reconciling MTE loaned to mailers against MTE returned to the Postal Service
       (14 of 14 facilities).

We also observed misuse of MTE at all Postal Services facilities we visited. The misuse
included using MTE for trashcans, as maintenance containers, to store construction
supplies, and as makeshift desks, among other things. We also noted one facility had
about 200 APCs of unprocessed MTE stockpiled over a 3-week span due to lack of
resources available to work and distribute the MTE.




             Postal Service APC used as               Misuse of Postal Service plastic hampers
        a makeshift desk at the Trenton P&DC.        during construction at the Cincinnati P&DC.
           Trenton, NJ, November 5, 2009.                Cincinnati, OH, December 10, 2009.


In addition, we found that facilities did not have effective controls and accountability of
MTE at mailers. Our observations at the 12 mailers reviewed revealed misappropriation
and misuse of MTE. Specifically we determined that:

      Mailers were using Postal Service MTE for their own internal operations, which
       resulted in unauthorized use of MTE (11 of 12 mailers).

      Mailers stated they did not know of their responsibility to safeguard MTE loaned
       to them (12 of 12 mailers).

      Mailers retained an excess of MTE on-hand (4 of 12 mailers).

      Mailers stored excess MTE outdoors in unlocked trailers in a lot without a gate
       and/or security, thereby placing Postal Service assets at further risk of theft (2 of
       4 mailers with excess MTE).

      Mailers did not properly safeguard loaned MTE by keeping it in an area with
       restricted access (3 of 12 mailers).




                                                10
Management of Mail Transport Equipment –                                                               NL-AR-10-004
 Eastern Area




    Postal Service pallets used by building owner to                 Postal Service hampers used in a mailer’s
     carry cinder blocks at a Postal Service mailer.                            internal operations.
          Moorestown, NJ, November 4, 2009.                             Pottstown, PA, November 3, 2009.


In addition, we also observed, or were advised of, potential unauthorized possession
and improper use of Postal Service MTE by other external parties as follows:

      One company had about 250 Postal Service plastic pallets in its yard, which were
       exposed to elements. It appeared from the company type that there was not an
       authorized use of the pallets and the Postal Service subsequently recovered the
       pallets (see illustration below).




                                      During our audit, we observed
                          unauthorized possession of approximately 250 Postal
                          Service pallets in Philadelphia, PA, November 3, 2009.


      A national trucking company was picking up plastic pallets for a national retailer.
       Postal Service officials stated they were advised that a retailer was using the
       pallets to transport merchandise from its main distribution center to some of its
       retail stores. Over a 6-month period, the transportation company went to the
       plant at least five times to pick up anywhere from 500 to 900 pallets.

      A pallet company attempted to sell back 1,000 Postal Service-owned plastic
       pallets to the Postal Service.

      One company was using about 20 to 25 trays and 2 to 3 pallets per month to ship
       mail to another country. Postal Service officials advised us that adequate controls




                                                         11
Management of Mail Transport Equipment –                                                             NL-AR-10-004
 Eastern Area


        were not in place to ensure the MTE was returned to the Postal Service and that
        foreign equipment was available to transport this company’s mail.

Accountability and control issues occurred because facility managers did not always
provide sufficient priority, resources, training, and oversight to manage MTE effectively.
Further, Eastern Area management did not assign sufficient resources to monitor MTE
management and to ensure compliance with POM requirements, such as not requiring
inventory counts from mailers or conducting periodic audits at large mailers. In addition,
the Eastern Area did not develop a SOP to address accountability controls over
reconciling MTE loaned to the mailers and customers.

Impact of Ineffective Controls

Without effective controls, mail may be delayed because some facilities may not have
sufficient MTE to move the mail. In addition, the Postal Service may be unnecessarily
purchasing MTE because of unaccounted for or improperly stored or misused
equipment. For example, the Eastern Area has purchased over $8.3 million cardboard
containers during FYs 2007-2009, a portion necessitated by the shortage of needed
MTE, such as rolling stock.15 Further, some MTE assets in the Eastern Area are at risk
of loss, theft, and misuse and could present a danger to public safety and security and
reflect poorly on the Postal Service’s brand and public image.

We could not determine the specific impact of weak controls over the inventory,
accountability, and safeguarding of MTE in the Eastern Area. However, the Postal
Service estimates 3.5 million plastic pallets (with an estimated value of about $70
million) leaked from its network nationwide during the past several years. These pallets
were unaccounted for over the last few years and are missing from the nationwide
network. Additionally, recent efforts between the Postal Service and Postal Inspection
Service resulted in the identification and recovery of over 293,000 pieces of MTE
nationally valued at about $3.2 million – most of which involved unauthorized use of
MTE at external customers or unauthorized possession by other parties, such as
recyclers or air cargo warehouses.




15
   We will conduct a subsequent audit to look at the Postal Service’s assessment and determination of “requirements”
for all MTE types, including the purchase of cardboard containers by both Postal Service Headquarters and the
areas.




                                                        12
Management of Mail Transport Equipment –                                                                 NL-AR-10-004
 Eastern Area


APPENDIX C: FACILITIES, CONTRACTORS AND MAILERS REVIEWED16

       Eastern Area         Postal Service or
                                                           Location                             Name
         District               External
     Appalachian         Postal Service Facility     South Charleston, WV     Charleston P&DC


     Central             Postal Service Facilities   Lancaster, PA            Lancaster P&DC
     Pennsylvania                                    Harrisburg, PA           Legree Daniels P&DC
                                                     Reading, PA              Reading P&DC

                         Mailer                      Duncanville, PA


     Cincinnati          Postal Service Facilities   Cincinnati, OH           Cincinnati NDC
                                                     Cincinnati, OH           Cincinnati P&DC

                         Mailers                     Cincinnati, OH
                                                     Middletown, OH


     Columbus            Postal Service Facility     Columbus, OH             Columbus P&DC

                         Mailers                     2 in Columbus, OH


     Kentuckiana         Postal Service Facility     Louisville, KY           Louisville P&DC


     Northern Ohio       Postal Service Facilities   Canton, OH               Canton P&DC
                                                     Cleveland, OH            Cleveland P&DC


     Philadelphia        Postal Service Facilities   Philadelphia, PA         Philadelphia NDC
     Metropolitan                                    Philadelphia, PA         Philadelphia P&DC

                         Mailers                     Pottstown, PA
                                                     Philadelphia, PA
                                                     Langhorne, PA
                                                     Chalfont, PA

                         MTESC                       Levittown, PA            Philadelphia MTESC


     South Jersey        Postal Service Facilities   Bellmawr, NJ             South Jersey P&DC
                                                     Trenton, NJ              Trenton P&DC

                         Mailers                     Moorestown, NJ
                                                     Swedesboro, NJ


     Western New York    Postal Service Facility     Buffalo, NY              Buffalo P&DC


     Western             Postal Service Facilities   Warrendale, PA           Pittsburgh L&DC
     Pennsylvania                                    Pittsburgh, PA           Pittsburgh NDC
                                                     Pittsburgh, PA           Pittsburgh P&DC

                         Mailer                      Freedom, PA

                         MTESC                       Warrendale, PA           Pittsburgh MTESC




16
  We reviewed 18 Postal Service facilities, as well as two contractors and 12 mailers, covering facilities at the 10
Postal Service Districts in the Eastern Area.




                                                           13
Management of Mail Transport Equipment –                                                             NL-AR-10-004
 Eastern Area


                                APPENDIX D: NON-MONETARY IMPACTS


                 Finding                                          Impact Category

                     1                                        Goodwill/Branding17


                                     TOTAL


We concluded that control and management weaknesses over MTE diminish the Postal
Service’s image, reputation, and brand posing a high risk of perceived public negativity
of the Postal Service’s ability to properly manage, account for, and protect their MTE
assets.




17
     An actual or potential event or problem that could harm the reputation of the Postal Service.




                                                             14
Management of Mail Transport Equipment –                   NL-AR-10-004
 Eastern Area


                       APPENDIX E: MANAGEMENT’S COMMENTS




                                           15
Management of Mail Transport Equipment –        NL-AR-10-004
 Eastern Area




                                           16
